Audit Report

Compliance with Standards Governing
Combined DNA Index System Activities at the Florida Department of Law Enforcement,
Tampa Bay Regional Operations Center, Tampa, Florida

Audit Report GR-40-05-008


May 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Florida Department of Law Enforcement, Tampa Bay Regional Operations Center (Laboratory).1   The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990.  The DNA Identification Act of 1994 (Public Law 103-322) formalized the FBIs authority to establish a national DNA index for law enforcement purposes.  The Act specifically authorized the FBI to establish an index of DNA identification records of persons convicted of crimes, and analyses of DNA samples recovered from crime scenes.  The Act further specified that the index include only DNA information that is based on analyses performed in accordance with standards issued by the FBI.

The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically.  The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level.  The NDIS became operational in 1998 and is managed by the FBI as the nations DNA database containing DNA profiles uploaded by participating states.  DNA profiles originate at the local level, flow to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other.

The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis.  A laboratorys profiles have to be uploaded to NDIS before the profiles benefit the system as a whole.  Before a laboratory is allowed to participate at the national level, a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory.  The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.2
The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities.  Specifically, we performed testing to determine if the:  (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and (3) Laboratorys DNA profiles in CODIS databases were complete, accurate, and allowable.

We determined that the Laboratory was in compliance with the standards governing CODIS activities with the following two exceptions.

The Laboratorys CODIS users annual reminder forms for calendar year 2004 were not signed by the users at the beginning of the calendar year; instead, the forms were signed in November 2004.

	Two of 100 forensic DNA profiles we reviewed were incorrectly uploaded to NDIS as forensic unknowns.  The errors occurred as a result of oversights by the analysts.  Laboratory officials agreed that these profiles were unallowable and removed the profiles from NDIS.  

The results of our audit are discussed in the Findings and Recommendations section of the report.  Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report.
  
  



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life.  Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
	
	These standards were appended to the MOU as Appendix C - NDIS Procedure Manual.  This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS.  For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.